                         Comprehensive Labor Audit for
                               Fiscal Year 2004

                                     March 2005

                      Reference Number: 2005-1C-044




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                             March 29, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                   Daniel R. Devlin
                               Assistant Inspector General for Audit (Headquarters Operations
                               and Exempt Organizations Programs)

       SUBJECT:                Comprehensive Labor Audit for Fiscal Year 2004
                               (Audit #20051C0209)


       The Defense Contract Audit Agency (DCAA) examined the Civil Division’s labor cost
       charging and allocation system to evaluate the adequacy of and the contractor’s
       compliance with the system’s internal controls for recording and accumulating labor
       charges.
       The DCAA considers the contractor’s labor recording system to be inadequate in part.
       The DCAA examination of the Civil Division’s labor and billing practices for Time and
       Material subcontractors noted a significant deficiency. According to the DCAA, the
       contractor’s practice does not include a reconciliation of the subcontractor’s official labor
       hour records to the amounts recorded in the contractor’s internal system of recording
       subcontractor labor hours (the Subcontractor Information Management System (SIMS))
       until the end of the contract. According to the DCAA, externally generated documents
       prepared by the subcontractor, not the contractor’s internally generated document from
       the SIMS, are the official source for recorded subcontract costs. Additionally, the DCCA
       opined that the contractor’s current practice of waiting until contract completion to
       perform this reconciliation significantly reduces the ability of the contractor, the
       subcontractor, and the Federal Government to evaluate any discrepancies in the
       recorded subcontract hours. This could result in significant overpayments of labor
       costs.
       Specifically, the DCAA indicated the following deficiencies: subcontractor official labor
       records are not reconciled to the contractor’s internal SIMS; the Time and Expense
                                             2

Schedule is not completed daily; employee location rosters are not current; and
employees are not obtaining a telework agreement prior to working at home.
The DCAA took no exception to the contractor’s using the SIMS for interim billing of
subcontract labor costs. However, the DCAA believes the contractor should (1) require
the subcontractors to periodically submit interim invoices in accordance with Federal
Acquisition Regulation 4-705 and the Civil Division’s Subcontract Agreements,
(2) periodically reconcile these interim invoices to the hours recorded in the contractor’s
SIMS during the course of contract performance, and (3) adjust billings accordingly. All
contractor employees should adhere to the established Timekeeping and Reporting
Handbook and record their hours worked on a daily basis, and the contractor should
maintain updated employee location information and properly inform all its employees of
the policy and procedures for performing work at home. Also, the contractor should
document its training to ensure all employees are familiar with its policies and
procedures, have attended the training on this subject, and adhere to established
policies and procedures.
This DCAA report was issued on June 2, 2004; however, the Treasury Inspector
General for Tax Administration (TIGTA) did not receive copy of the report until
February 2005. The Internal Revenue Service (IRS) previously received a copy of the
report directly from the DCAA. We are transmitting this report to you to enable the IRS
to track any financial accomplishments derived from negotiations with the contractor
based on the results of this DCAA report.
The information in this report should not be used for purposes other than those intended
without prior consultation with the TIGTA regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
